                Performance Management in the Large and
                Mid-Size Business Division’s Industry Case
                      Program Needs Strengthening

                                     May 2005

                       Reference Number: 2005-30-084




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        May 27, 2005


      MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Performance Management in the Large and
                                    Mid-Size Business Division’s Industry Case Program Needs
                                    Strengthening (Audit # 200330028)


      This report presents the results of our review of the Large and Mid-Size Business
      (LMSB) Division’s performance management system for examiners and team managers
      in its Industry Case (IC) Program. The overall objective of this review was to determine
      whether the LMSB Division’s performance management system is effective in linking
      the Internal Revenue Service (IRS) mission, strategic goals, and balanced measures1 to
      team manager and examiner performance in the IC Program.2
      In summary, the LMSB Division’s performance management system provides direct
      links from the IRS mission and goals down to the appraisal processes for examiners
      and team managers in the IC Program. Actions have also been taken to enhance the
      performance management system for team managers. However, there are areas in the
      appraisal processes of IC examiners that could be strengthened to reinforce the



      1
        The mission of the IRS is to provide taxpayers top-quality service by helping them understand and meet their tax
      responsibilities and by applying the tax law with integrity and fairness to all. To support this mission, the IRS has
      developed three strategic goals: (1) Improve Taxpayer Service, (2) Enhance Enforcement of the Tax Law, and
      (3) Modernize the IRS Through Its People, Processes, and Technology. The IRS uses its Balanced Measurement
      System at both the strategic level and the operational level to measure organizational performance. The Balanced
      Measurement System consists of the elements of customer satisfaction, employee satisfaction, and business results,
      with business results being comprised of quality and quantity measures.
      2
        The LMSB Division serves corporations, subchapter S corporations, and partnerships with assets greater than
      $10 million and divides these taxpayers into 2 categories, Coordinated Industry Cases (CIC) and ICs. CICs
      generally involve the nation’s largest taxpayers and are usually examined by teams of examiners. ICs are generally
      assigned to one examiner.
                                                         2

importance of adhering to LMSB Quality Management System (LQMS) standards and
completing examinations more timely.
At the IRS, as in other Federal Government agencies, implementing a performance
management system is a critically important endeavor. Among other things, agency
managers need to establish processes that promote teamwork and organizational
success by integrating individual performance with agency goals. Since the LMSB
Division’s work primarily relates to enhancing enforcement of the tax law, the primary
objective of the IC Program, and the responsibility of examiners and team managers, is
to conduct timely, quality examinations of selected tax returns. To assist examiners and
team managers in meeting their responsibilities, the LMSB Division defines and
measures quality against four standards that are set forth in the LQMS and uses cycle
time to monitor the timeliness of examinations.3
Since the LMSB Division’s stand-up nearly 5 years ago, overall performance ratings of
“Exceeds Fully Successful” or higher on IC examiner critical job responsibilities have
been the norm, and the use of the “Outstanding” overall rating has steadily increased.
While the performance ratings of IC examiners have been increasing, the IC Program
as a whole has been challenged to meet LQMS quality standards and cycle time target
goals in examinations. For example, statistics show approximately 20 percent of IC
corporate examinations and between 40 and 60 percent of partnership examinations
are closed without any adjustments. While these “no-change” examinations can
indicate a poor job of selecting returns for examination and/or a poor job of examining
them, evidence suggests that it is the latter and not the former. In addition,
examinations are consuming more hours and taking longer to complete.
Team managers are encouraged to conduct workload reviews4 over the work of IC
examiners under their supervision. For a number of reasons, these reviews can be a
critically important component in the appraisal process for IC examiners. Despite the
importance of workload reviews, they are not being consistently used to monitor and
evaluate the work of IC examiners. We reviewed the Fiscal Years (FY) 2002 and 2003
annual appraisals for 30 IC examiners and found that for 7 (23 percent), the
performance ratings in the annual appraisals were not supported by any documented
workload reviews in at least 1 year. Where workload reviews were documented,
relatively few discussed the examiners’ critical job responsibilities, addressed
adherence to LQMS standards, and/or identified opportunities to enhance performance.
To strengthen performance management for IC examiners, we recommended the
Commissioner, LMSB Division, develop and implement plans requiring (1) team
managers provide more specific written feedback to examiners on the quality and

3
  Cycle time is the average number of months from when a return is filed until the examination process is completed.
In Fiscal Years 2002 and 2003, examinations in the IC Program were considered timely if, on average, they were
completed within 31 and 35 months, respectively.
4
  LMSB Division officials told us they consider a workload review to generally be an inventory management tool.
For conciseness, however, we used workload reviews in this report to describe a variety of managerial practices used
to monitor and provide written feedback to examiners. These managerial practices include reviews of work during
and after an examination closes, on-the-job visits with examiners, and reviews of examiners’ monthly time reports.
                                                         3

timeliness of examinations that relates to their critical job elements and can be used as
support for midyear progress reports and annual appraisals and (2) territory managers5
monitor and assess the appraisal process of IC examiners during their operational
reviews.6
Management’s Response: The Commissioner, LMSB Division, agreed with both of our
recommendations. The Commissioner, LMSB Division, will issue a performance
management reminder to the field to highlight the responsibility to conduct on going
performance assessments, stress the importance of documentation for progress
reviews and annual appraisals, and remind territory managers to include individual
agent performance in the topics discussed as part of the operational review process. A
Team Manager Checksheet has already been issued to assist managers in conducting
reviews and assessments. Also, the LMSB Guide of Field Balanced Measures Priorities
and Recommended Performance Commitments for FY 2005 was developed and issued
to encourage team managers to follow a seven-step process for performance reviews
and use performance data in developing commitments. Finally, the Commissioner,
LMSB Division, stated LMSB Division territory managers already include discussions of
individual agent performance in their operational reviews. Management’s complete
response to the draft report is included as Appendix VII.
Office of Audit Comment: With respect to the Commissioner, LMSB Division’s response
to our second recommendation, we agree the LMSB Guide of Field Balanced Measures
Priorities and Recommended Performance Commitments for FY 2005 provides valuable
guidance for developing team manager commitments. However, it does not specifically
address the examiner appraisal process. Because the LMSB Division has not
established a formal process to monitor and assess whether team managers are
providing meaningful performance feedback to examiners, we continue to recommend
territory managers be required to monitor and assess the appraisal process of IC
examiners during operational reviews and take steps to address any problems
identified. As we noted in the report, we reviewed a number of operational reviews of
territory managers over team managers. Of the 45 operational reviews evaluated, we
found no documented evidence that territory managers assessed whether team
managers were conducting workload reviews for IC examiners.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Philip
Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (215) 516-2341.




5
    Territory managers in the LMSB Division are midlevel managers that supervise team managers.
6
    Operational reviews are reviews of team managers and their respective examination teams.
  Performance Management in the Large and Mid-Size Business Division’s Industry Case
                           Program Needs Strengthening




                                                  Table of Contents


Background ............................................................................................... Page 1
Performance Management in the Large and Mid-Size Business
Division Connects to and Supports Agency Goals .................................... Page 3
Actions Have Been Taken to Assist Team Managers in
Constructing More Meaningful Commitments ........................................... Page 6
Examiners Need More Meaningful and Constructive
Performance Feedback ............................................................................. Page 10
         Recommendation 1: .......................................................................Page 17
         Recommendation 2: .......................................................................Page 18

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 20
Appendix II – Major Contributors to This Report ....................................... Page 22
Appendix III – Report Distribution List ....................................................... Page 23
Appendix IV – Examiner Annual Performance Appraisal Form ................. Page 24
Appendix V – Team Manager Performance Agreement Form .................. Page 26
Appendix VI – The Large and Mid-Size Business Division’s
Quality Measurement System ................................................................... Page 31
Appendix VII – Management’s Response to the Draft Report ................... Page 33
  Performance Management in the Large and Mid-Size Business Division’s Industry Case
                           Program Needs Strengthening

                                 At the Internal Revenue Service (IRS), as in other Federal
Background
                                 Government agencies, implementing a performance
                                 management1 system is a critically important endeavor.
                                 Among other things, agency managers need to establish
                                 processes that promote teamwork and organizational
                                 success by integrating individual performance with agency
                                 goals. As reflected in its mission statement and goals,2
                                 providing quality service to taxpayers is of paramount
                                 importance to the IRS. However, concerns were raised in
                                 the 1990s that the IRS performance management system
                                 may be promoting revenue production over service to
                                 taxpayers. The concerns focused primarily on employees in
                                 its operating divisions who were responsible for enforcing
                                 the tax laws, such as IRS examiners and collectors. In
                                 January 1998, the IRS began developing a blueprint to guide
                                 the redesign of its performance management systems to
                                 better balance the needs of providing service to taxpayers
                                 and collecting revenue.
                                 The Large and Mid-Size Business (LMSB) Division is
                                 dedicated to serving large businesses and is one of four
                                 operating divisions in the IRS.3 While the LMSB Division
                                 programs are designed to support all IRS goals, the
                                 Division’s work primarily relates to enforcing the tax law.
                                 To support this broader IRS goal, the primary objective of
                                 its Industry Case (IC) Program,4 and the responsibility of

                                 1
                                   Office of Personnel Management regulations define performance
                                 management as the integrated processes agencies use to
                                 (1) communicate and clarify organizational goals, (2) identify
                                 accountability for accomplishing organizational goals, (3) identify and
                                 address developmental needs, (4) assess and improve performance,
                                 (5) measure performance for recognizing and rewarding
                                 accomplishment, and (6) prepare appraisals.
                                 2
                                   The mission of the IRS is to provide taxpayers top-quality service by
                                 helping them understand and meet their tax responsibilities and by
                                 applying the tax law with integrity and fairness to all. To support this
                                 mission, the IRS has developed three strategic goals: (1) Improve
                                 Taxpayer Service, (2) Enhance Enforcement of the Tax Law, and
                                 (3) Modernize the IRS Through Its People, Processes, and Technology.
                                 3
                                   The LMSB Division serves corporations, subchapter S corporations,
                                 and partnerships with assets greater than $10 million.
                                 4
                                   The LMSB Division divides its taxpayers into two categories:
                                 Coordinated Industry Cases (CIC) and ICs. CICs generally involve the
                                 nation’s largest taxpayers and are usually examined by teams of
                                 examiners. ICs are generally assigned to one examiner.
                                                                                                  Page 1
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               examiners and team managers, is to conduct timely, quality
                               examinations of selected large business tax returns to
                               determine if the businesses have paid the proper amount of
                               tax. To assist examiners and team managers in meeting
                               their responsibilities, the LMSB Division defines and
                               measures quality of work against four standards that are set
                               forth in its LMSB Quality Management System (LQMS).
                               To monitor the timeliness of examinations, the LMSB
                               Division uses a cycle time measure.5
                               Team managers are responsible for managing the
                               performance of examiners under their supervision. As
                               described in IRS documents, a key component in the
                               appraisal process is the set of examiner critical job
                               responsibilities that are provided to and discussed with each
                               examiner. Among other things, the critical job
                               responsibilities describe in detail the knowledge, skills, and
                               abilities that examiners are expected to demonstrate and are
                               used as the basis for their annual performance appraisals.
                               Appendix IV contains a copy of the examiner appraisal form
                               and critical job responsibilities.
                               The performance of team managers is evaluated in much the
                               same way as that of examiners, although there are some
                               differences. One difference is that LMSB Division territory
                               managers6 are responsible for managing and evaluating the
                               performance of the team managers. Another important
                               difference is that team managers develop commitments at
                               the beginning of the fiscal year that supplement the critical
                               job responsibilities. The commitments are to be specifically
                               tailored to the developmental needs of the individual team
                               manager. Appendix V contains a copy of the manager
                               performance agreement form and critical job
                               responsibilities.


                               5
                                 The LQMS is a Division-wide control for identifying and advising
                               management on quality problems in examinations. To define
                               examination quality, the system uses four quality standards. Each
                               standard also has several key elements that elaborate on the overall
                               standard. (See Appendix VI for more details on the standards and their
                               associated elements). Cycle time is the average number of months from
                               when a return is filed until the examination process is completed.
                               6
                                 Territory managers in the LMSB Division are midlevel managers that
                               supervise team managers.
                                                                                             Page 2
  Performance Management in the Large and Mid-Size Business Division’s Industry Case
                           Program Needs Strengthening

                                 This review was performed at the LMSB Division
                                 Headquarters in Washington, D.C., and IRS offices in the
                                 Los Angeles, California; Houston, Texas; and
                                 New York, New York, metropolitan areas during the period
                                 October 2003 through June 2004. The audit was conducted
                                 in accordance with Government Auditing Standards.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 The LMSB Division is implementing the redesigned IRS
Performance Management in
                                 performance system according to the blueprint developed
the Large and Mid-Size
                                 by the IRS Performance Management Executive Council
Business Division Connects to
                                 in 1999. As called for in the blueprint, the LMSB Division
and Supports Agency Goals
                                 develops an annual program plan identifying trends, issues,
                                 and problems in tax administration affecting large
                                 businesses. Additionally, the annual program plan identifies
                                 the Division’s strategic goals and corresponding objectives
                                 that are intended to address the trends, issues, and problems
                                 as well as link to and support the broader IRS mission and
                                 strategic goals.
                                 To illustrate, LMSB Division surveys of large businesses
                                 have consistently shown dissatisfaction with the postfiling
                                 examination process. Stated simply, large businesses
                                 believe the examination process is too long and consumes
                                 too much of their time. To address this issue, the LMSB
                                 Division has a strategic goal of “developing and
                                 institutionalizing a comprehensive issue management
                                 strategy” and supporting operating objectives that are
                                 intended to accomplish the goal of the strategy. Figure 1
                                 shows the links among the IRS goal of “improving taxpayer
                                 service;” the trend, issue, and problem with the examination
                                 process; and the LMSB Division goals and objectives.




                                                                                       Page 3
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                 Figure 1: Links Between the IRS and LMSB Division Goals for
                                                 Improving Taxpayer Service



                                 Agency-wide               Improve taxpayer service by simplifying
                                  Strategic                           the tax process.
                                    Goal



                                Trend, Issue,                 Surveys of large businesses have
                                                          consistently shown dissatisfaction with the
                                and Problem                    time and length of the postfiling
                                                                     examination process.



                                 Example of                    Develop and institutionalize a
                                   LMSB                  comprehensive issue management strategy
                                  Division                 to advance the early resolution of tax
                                  Goal and                                issues.
                                  Objective

                               Source: Treasury Inspector General for Tax Administration (TIGTA)
                               analysis of the IRS performance management system.

                               The LMSB Division annual program plan also describes the
                               measures used to judge the Division’s performance. The
                               IRS balanced measures of customer satisfaction, business
                               results, and employee satisfaction are used Division-wide
                               and provide the links to the IRS goals of improving taxpayer
                               service, enhancing tax law enforcement, and modernizing
                               through people, processes, and technology.
                               Just as the IRS balanced measures define and measure the
                               performance of the LMSB Division, examiners and team
                               managers are evaluated on critical job responsibilities that
                               are identical to the balanced measures. The match between
                               the IRS balanced measures and critical job responsibilities
                               provides direct links from the IRS mission and goals down
                               to the performance appraisals of LMSB Division examiners
                               and team managers.
                               The relationship between balanced measures and critical job
                               responsibilities is also intended to create a balanced
                               approach to tax law enforcement and taxpayer service. This
                               is important because a fundamental reason for the matching
                               measures was to address criticisms that managers,
                               examiners, and other frontline employees were more

                                                                                                 Page 4
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               focused on enforcing the tax law than on improving service
                               to taxpayers.
                               For example, the Government Accountability Office (GAO)
                               found that, before the new critical job responsibilities were
                               introduced, appraisals overemphasized enforcement at the
                               expense of taxpayer service. The GAO estimated in a 1999
                               report7 that two-thirds of written performance feedback in
                               frontline employee appraisals related to enforcement and
                               only one-third to taxpayer service.
                               Using the GAO results as a baseline for comparison
                               purposes, for a judgmental sample of 30 IC examiners we
                               analyzed 61 annual appraisals containing the new critical
                               job responsibilities issued over a 2-year period. We
                               concluded that team managers were effectively balancing
                               their narrative comments in performance appraisals between
                               enforcement and taxpayer service. As shown in Figure 2,
                               about 38 percent of the team manager comments related to
                               enforcement actions (Business Results) and 41 percent
                               emphasized service, such as taking into account the
                               taxpayer’s point of view (Customer Satisfaction).

                                       Figure 2: Frequency of Taxpayer Service Comments and
                                   Business Results Comments in IC Examiner Appraisals Issued for
                                                   Fiscal Years (FY) 2002 and 2003
                                                                                     Frequency of Comments
                                               Critical Job Element                  2002   2003    Total
                                   Customer Satisfaction (Knowledge)                 172     97      269

                                   Customer Satisfaction (Application)               205     127     332

                                                                         Subtotals   377     224     601
                                   Business Results (Quality)                        174     112     286

                                   Business Results (Efficiency)                     178     100     278

                                                                         Subtotals   352     212     564
                                   Employee Satisfaction                             198     103     301

                                                                           Totals    927     539    1,466

                               Source: TIGTA analysis of IC examiner appraisals for FYs 2002
                               and 2003.



                               7
                                IRS Employee Evaluations: Opportunities to Better Balance Customer
                               Service and Compliance Objectives (GGD-00-1, dated October 1999).
                                                                                                   Page 5
 Performance Management in the Large and Mid-Size Business Division’s Industry Case
                          Program Needs Strengthening

                                While performance management in the LMSB Division
                                connects to and supports IRS goals, actions have also been
                                taken to enhance the performance management system for
                                team managers. These actions, as discussed below, can
                                provide a strong foundation for holding managers
                                accountable for their individual and team performance.

Actions Have Been Taken to      The performance management system for team managers
Assist Team Managers in         requires that at the beginning of each fiscal year they
Constructing More Meaningful    coordinate with their respective territory managers to set
Commitments                     forth commitments in their individual performance plans.
                                The commitments are intended to provide the basis for
                                linking team manager critical job responsibilities with the
                                IRS balanced measures and strategic goals and holding them
                                accountable for their individual and team performances. To
                                realize these benefits, the commitments are to be related to
                                at least one critical job responsibility. They should also,
                                according to the IRS,8 specifically describe the actions to be
                                taken, include a deadline, indicate an expected result, and
                                include a numeric target or some other means of
                                measurement.
                                We reviewed the FYs 2002 and 2003 performance
                                agreements of 20 team managers and determined that they
                                had developed a total of 367 commitments over the 2-year
                                period. We also found documentation that most territory
                                managers had conducted annual operational reviews and
                                midyear progress reviews over the team managers under
                                their supervision. The documentation from the reviews was
                                incorporated into the team managers’ annual appraisals and
                                provided evaluative feedback for each of the team
                                managers’ critical job responsibilities. As shown in
                                Figure 3, each of the commitments related to at least one of
                                the critical job responsibilities and thus provided links to the
                                IRS balanced measures and strategic goals.




                                8
                                 See, for example, the IRS Human Capital Office (formerly Office of
                                Strategic Human Resources) guide entitled, Reference for Executives,
                                Managers, and Management Officials on Writing Commitments and
                                Self-Assessments (September 2001).
                                                                                               Page 6
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                 Figure 3: Distribution of Team Manager Commitments Among
                                     the Critical Job Responsibilities for FYs 2002 and 2003
                                       Critical Job Responsibility            Number   Percentage
                                Leadership                                      46        13%

                                Employee Satisfaction                           63        17%

                                Customer Satisfaction                           66        18%

                                Business Results                               174        47%

                                Equal Employment Opportunity                    18        5%

                                                                     Totals    367       100%

                               Source: TIGTA analysis of 20 team manager performance agreements
                               for the 2-year period ending in FY 2003.

                               While team manager commitments met the IRS’ criteria for
                               addressing critical job responsibilities, they did not always
                               meet the other criteria for well-structured commitments.
                               We determined that 191 (52 percent) of the
                               367 commitments were stated in broad, general terms that
                               did not clearly describe the action to be taken, indicate a
                               deadline, identify an expected result, and/or include a way
                               to measure whether the commitment was met. As a result,
                               territory managers could have difficulty monitoring the
                               commitments and holding team managers responsible for
                               meeting them. We found, for example, commitments that
                               stated:
                                   •   I will take the necessary steps in a joint effort with
                                       Team Members to identify and implement corrective
                                       actions to improve the quality of workpapers.
                                   •   I will work towards the assignment of cases in the
                                       Manufacturing, Construction and Transportation
                                       Industry in my group. I will provide my agents
                                       training in the issues related to these industry cases.
                                   •   I will assure the [sic] all team members throughout
                                       the entire examination cycle remain aware of the
                                       new acceptable auditing standards applicable to
                                       limited scope examinations of a cycle and also to the
                                       individual issues being developed by each team
                                       member.


                                                                                           Page 7
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                  •   I will pursue a working strategy that involves
                                      taxpayer/customer as a partner in IRS audit and
                                      case resolution process.
                               While the above commitments are worthwhile goals, they
                               do not include any specific actions to be taken to achieve the
                               commitment or a method to measure progress. In contrast,
                               some commitments were specific:
                                  •   I will review cases selected by the territory manager
                                      using the LQMS reviewers checksheet. Areas for
                                      improvement will be discussed with the exam teams.
                                      A follow-up review will be performed at the 50% or
                                      75% milestone to assess improvement.
                                  •   I will schedule two work related training classes to
                                      be presented during group meetings.
                                  •   I will conduct reviews of CIC and IC cases in
                                      process 48 months and 24 months, respectively, from
                                      file date to improve cycle time.
                                  •   Develop and implement Managerial participation in
                                      all Opening and Closing Conferences to provide
                                      audit support and facilitate Case Resolution.
                               Our analysis additionally showed commitments could have
                               been used to greater advantage to reinforce the importance
                               of key directives issued from LMSB Division senior
                               executives. Figure 4 provides an overview for three
                               directives issued to team managers and other field personnel
                               by the LMSB Division Commissioner during the period
                               covered by our review.




                                                                                      Page 8
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                       Figure 4: Frequency Selected Directives Appeared as
                                      Commitments in Performance Agreements for 20 Team
                                                 Managers in FYs 2002 and 2003
                                                                                       Frequency with which the
                                                                                             directive appeared
                                                                                               as a commitment

                                               Directive and Overview                          2002      2003
                                Issue mandatory request for abusive tax shelter
                                information. This is a starting point for determining if the     4        16
                                corporation was involved in certain abusive transactions.

                                Discuss the purpose and use of prefiling agreements in the
                                early stages of the examination. Prefiling agreements are a
                                                                                                 8        18
                                critical part of an overall effort to shorten the postfiling
                                examination process and increase customer satisfaction.

                                Issue a mandatory request for transfer pricing
                                documentation. This is a key component in a compliance
                                                                                                N/A       0
                                initiative to deal with cross-border transactions that could
                                be undermining the U.S. tax base.

                               N/A – directive not issued until FY 2003.
                               Source: TIGTA analysis of 20 team manager performance agreements
                               for FYs 2002 and 2003.

                               Although the directives supported the IRS strategic goals
                               and could enhance the quality and/or timeliness of
                               examinations, they were not consistently included as a
                               commitment in the performance agreements of the 20 IC
                               team managers we reviewed. For example, Figure 4 shows
                               the directive to issue requests for transfer pricing
                               documentation during examinations was included as a
                               commitment in none of the 20 team manager performance
                               agreements for FY 2003.
                               The LMSB Division Office of Performance, Quality, and
                               Audit Assistance issued the LMSB Guide of Field Balanced
                               Measures Priorities and Recommended Performance
                               Commitments for FY 2005 after we completed our audit
                               work. The LMSB Division guide was developed as the
                               result of analysis that provided top executives with
                               information on how well the processes for evaluating team
                               managers was working in practice and if changes were
                               needed to make that process more meaningful. Unlike the
                               agency-wide reference guide for writing commitments
                               published in 2001, which provided general directions for all
                               IRS managers, the LMSB Division guide is uniquely
                               tailored to team managers. We believe the
                               recommendations in the LMSB Division guide, if properly
                                                                                                        Page 9
  Performance Management in the Large and Mid-Size Business Division’s Industry Case
                           Program Needs Strengthening

                                 implemented and monitored, will address factors that
                                 contributed to the concern about vaguely worded team
                                 manager commitments.
                                 The LMSB Division guide, for example, recommends that
                                 team managers follow a seven-step process and use
                                 performance data in developing their commitments so they
                                 are clear, specific, easy to monitor, and results oriented. It
                                 also provides specific examples of well-constructed
                                 commitments addressing the different operational priorities
                                 of the LMSB Division and how team managers are to
                                 incorporate the priorities into their commitments. For
                                 example, abusive corporate tax shelters continue to receive
                                 top priority in FY 2005. To address this priority, the guide
                                 recommends team managers commit to starting
                                 examinations on all corporate returns with an abusive tax
                                 shelter within 30 days of receiving the returns.
                                 With enhancements underway to the performance
                                 management system for team managers, we believe the next
                                 step is to strengthen the performance management system
                                 for IC examiners. Available evidence suggests that there
                                 are actions that could be taken to better hold IC examiners
                                 accountable for the quality and timeliness of their
                                 examinations.
                                 Since the LMSB Division’s stand-up nearly 5 years ago,
Examiners Need More
                                 overall performance ratings of “Exceeds Fully Successful”
Meaningful and Constructive
                                 or higher on examiner critical job responsibilities have been
Performance Feedback
                                 the norm. In FY 2004, for example, nearly all (93 percent)
                                 IC examiners received an overall rating of “Exceeds Fully
                                 Successful” or higher. Additionally, the use of the
                                 “Outstanding” overall rating has steadily increased to the
                                 point that 61 percent of examiners received the rating in
                                 FY 2004 compared to 36 percent in FY 2001. While the
                                 performance ratings of IC examiners have been increasing,
                                 the IC Program has been challenged to meet LQMS quality
                                 standards and cycle time goals despite having reported
                                 successes in other areas of the Program.9



                                 9
                                   The LMSB Division, for example, reported that its employee
                                 satisfaction rating reflected a continuing upward trend in FY 2004 and
                                 that the overall satisfaction of IC Program taxpayers remained high.
                                                                                                Page 10
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               For example, statistics show IC examiners over the last
                               4 years have closed approximately 20 percent of corporate
                               examinations and between 40 and 60 percent of partnership
                               examinations without recommending any adjustments.
                               While these “no-change” examinations can indicate a poor
                               job of selecting returns for examination and/or a poor job of
                               examining them, evidence suggests that it is the latter and
                               not the former. To illustrate, consider the following
                               information regarding the quality of IC examinations.
                               Large businesses do not want to be examined if they have
                               complied with the tax law. If large businesses have not
                               complied with the tax law, LMSB Division surveys indicate
                               they want the examination to be over quickly and targeted
                               only at questionable items. As part of the LMSB Division’s
                               strategy for dealing with this problem, its top executives
                               have invested considerable effort in developing and
                               implementing automated systems to identify those tax
                               returns with a high compliance risk for examination. The
                               systems are designed to reduce the number of no-change
                               examinations by ensuring only returns with the highest
                               potential for adjustment are selected for examination.
                               However, the quality deficiencies shown in Figure 5 that
                               continue to be identified by LQMS reviewers could hamper
                               efforts to reduce the number of unproductive examinations.

                                       Figure 5: LQMS Pass Rates‫ ٭‬for Selected Quality
                                       Responsibilities in IC Examinations, by Fiscal Year
                                                                    Percentage of Examinations Passing
                                                                       Selected Quality Responsibilities

                                        Quality Elements                  2003                2004
                                Identifies material issues.                38%                48%
                                Makes required referrals to
                                                                           50%                63%
                                specialists.
                                Performs initial risk analysis
                                                                           44%                40%
                                appropriately.
                                Uses appropriate examination
                                                                           63%                61%
                                procedures and techniques.
                               ‫ ٭‬The pass rate measurement computed the percentage of cases that
                               showed the characteristics of the quality element.
                               Source: LMSB Division data.


                                                                                              Page 11
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               The processes underlying each of the items in Figure 5 are
                               designed to ultimately determine the large, unusual, and
                               questionable tax issues that will be examined.
                               Consequently, if the processes are not properly completed,
                               tax issues can be overlooked, resulting in no-change
                               examinations that otherwise may have been avoided.
                               In response to surveys indicating large businesses want
                               examinations to be over quickly and targeted only at
                               questionable items, promising new business practices have
                               been introduced. For example, a “fast track” process for
                               resolving disputes that surface in examinations has been
                               tested and converted to a permanent program. The goal of
                               the program is to expedite the entire postfiling issue
                               resolution process by bringing in the IRS Office of Appeals
                               to resolve disputes concurrently with an examination rather
                               than subsequent to it. A prefiling agreement process was
                               also introduced through a test project and subsequently
                               converted to a permanent program. The program permits a
                               taxpayer to resolve, before the filing of a return, the
                               treatment of an issue that otherwise would likely be disputed
                               in a postfiling examination.
                               To target the questionable items on a tax return for
                               examination, the LMSB Division is emphasizing a
                               risk-based examination approach that is exemplified in the
                               Limited Issue Focused Examination (LIFE) process.
                               Introduced in 2002, the goals of the LIFE process include
                               restricting examinations of large businesses to the few
                               issues on their tax returns that pose the greatest compliance
                               risk. Despite the introduction of new business processes,
                               reducing the time spent on and length of IC examinations
                               remains a challenge. As shown in Figure 6, the time spent
                               on and the length of IC examinations are trending upward.




                                                                                     Page 12
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                    Figure 6: Average Hours Spent on and Length of IC Corporate
                                           and Partnership Examinations in FYs 2001-2004
                                                  Number of          Length of
                                                   Returns         Examination in    Examiner Hours
                                                  Examined            Months          Spent on Each
                                    Fiscal Year      (∂)                (√)              Return

                                      2001         11,267               34.2               142
                                      2002          9,601               36.5               183
                                      2003          8,002               39.6               202
                                      2004          9,044               39.2               212
                               (∂) Returns include corporations, partnerships, and
                               subchapter S corporations.
                               (√) Length measures from the return filed date to the date the
                               examination was closed.
                               Source: LMSB Division data (FY 2004 data are preliminary final data).

                               There are several factors contributing to the concerns with
                               IC examinations, some of which are beyond the control of
                               the LMSB Division. For example, abusive tax avoidance
                               transactions proliferated in the 1990s and are affecting IC
                               examinations.10 Officials told us that the complexity of
                               abusive tax avoidance transactions can, among other things,
                               increase the length of and time spent on examinations.
                               However, we found that there are areas in the appraisal
                               processes of examiners that could be strengthened to
                               reinforce the importance of adhering to LQMS standards
                               and completing examinations more timely.
                               In a 2003 report to the President and the Congress, the
                               United States Merit Systems Protection Board (MSPB)
                               reported 11 that continually monitoring and providing


                               10
                                  In testimony before the United States Senate Finance Committee in
                               July 2004, the IRS Commissioner stated, “these transactions often
                               involve complicated transactions that IRS agents must penetrate to
                               determine whether a transaction is, in fact, abusive.” As a result,
                               examinations involving potentially abusive transactions can consume
                               more hours and take longer to complete. Of the 1,451 direct staff years
                               expended on the IC Program in FY 2004, approximately 205 staff years
                               (14 percent) involved potentially abusive transactions.
                               11
                                  The Federal Workforce for the 21st Century: Results of the Merit
                               Principles Survey 2000 (September 2003). The MSPB is an
                               independent, quasi-judicial agency that oversees and adjudicates the
                               application of merit system principles within the Executive Branch.
                                                                                             Page 13
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               feedback to employees is perhaps the most important
                               component of performance management. According to the
                               MSPB:
                                       This component, more than any other, can give
                                       employees a sense of how they are doing and can
                                       motivate them to be as effective as possible. Ideally,
                                       through these ongoing interactions between
                                       employees and supervisors, employees learn how
                                       their work fits into the goals of the work unit and
                                       how it contributes to the larger mission of the
                                       agency.
                               Team managers are encouraged to conduct workload
                               reviews12 over the work of each IC examiner under their
                               supervision. These reviews can be a critically important
                               component in the appraisal process for IC examiners for a
                               number of reasons. The foremost reasons are they provide
                               team managers with opportunities to ensure examiners are
                               adhering to LQMS standards, reinforce the importance of
                               completing examinations timely, and pinpoint and address
                               performance gaps. They also provide the principal support
                               for the ratings examiners receive in their critical job
                               responsibilities that are reflected in their annual appraisals
                               and midyear progress reports.
                               Despite the importance of workload reviews, we determined
                               team managers are not consistently using them to monitor
                               and evaluate the work of IC examiners. As a result, IC
                               examiners are receiving ratings in their annual appraisals
                               that are not well supported. Further, team managers may be
                               missing opportunities to better hold examiners accountable
                               for improving the quality and timeliness of their
                               examinations.
                               We reviewed 61 annual appraisals provided to 30 IC
                               examiners for FYs 2002 and 2003 and determined the


                               12
                                 LMSB officials told us they consider a workload review to generally
                               be an inventory management tool. For conciseness, however, we used
                               workload reviews in this report to describe a variety of managerial
                               practices used to monitor and provide written feedback to examiners.
                               These managerial practices include reviews of work during and after an
                               examination closes, on-the-job visits with examiners, and reviews of
                               examiners’ monthly time reports.
                                                                                             Page 14
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               appraisals for 7 (23 percent) of the 30 IC examiners were
                               not supported by any workload reviews in 1 or more years.
                               For the remaining 23 examiners for whom workload
                               reviews were performed in both years, there were significant
                               differences among team managers in the types and quality
                               of feedback provided to examiners on their performance
                               during workload reviews. For example, one team manager
                               developed a template to capture and record detailed
                               narrative comments on each examiner’s critical job
                               responsibilities. Other workload reviews were documented
                               on monthly time reports of IC examiners and contained one
                               or two narrative comments, such as:
                                  •   Claim was not processed properly and you assisted
                                      taxpayer to get resolved.
                                  •   Thank you for keeping your cases moving and for
                                      closing cases with low hours.
                               Overall, relatively few of the workload reviews specifically
                               discussed the examiners’ critical job responsibilities or
                               identified opportunities to improve the timeliness of their
                               examinations. Of the 23 examiners that received workload
                               reviews over the 2-year period, only 8 received comments
                               specifically addressing all critical job elements and only
                               8 received comments identifying opportunities for
                               improving the timeliness of their work.
                               Our analysis also showed there are ample opportunities to
                               use workload reviews for emphasizing the importance of
                               adhering to LQMS standards. We analyzed the
                               149 workload reviews given to the 23 examiners over the
                               2-year period and determined the LQMS standards were
                               discussed in 40 (27 percent) of the 149 workload reviews.
                               Figure 7 provides summary information from our analysis
                               of the reviews discussing LQMS standards and shows the
                               percentage of the 149 reviews that related to the deficiencies
                               discussed earlier that the LQMS continues to identify year
                               after year.




                                                                                     Page 15
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                    Figure 7: Frequency of Discussion of Selected LQMS Standards
                                                   Elements in Workload Reviews

                                                                                Percentage
                                                                 Number of        of All       Number of
                                        Quality Elements         Reviews (√)     Reviews       Examiners
                                Identifies material issues.           2             1%              2

                                Makes required referrals to
                                                                     33            22%              9
                                specialists.
                                Performs initial risk
                                                                     12             8%              7
                                analysis appropriately.
                                Uses appropriate
                                                                      3             2%              2
                                procedures and techniques.
                                All other quality elements.           2             1%              2


                               (√) The documentation in some workload reviews discussed more than
                               one LQMS standard.
                               Source: TIGTA analysis of 149 workload reviews conducted by 24 team
                               managers over the 2-year period ending in FY 2003.

                               In addition, our evaluation of 62 returns (47 cases)13 closed
                               as no-change between FYs 1999 and 2002 by the
                               30 examiners in our review supports the concern with the
                               quality of the feedback examiners are receiving in their
                               workload reviews. We determined that, in 54 (87 percent)
                               of the 62 returns, at least 1 mandatory specialist referral was
                               not made. As noted in Figure 7, LQMS standards and
                               elements require IC examiners to call upon specialists14
                               during their examinations. These specialists, according to
                               the LMSB Division, have the technical training needed to
                               assist in the identification, selection, and examination of
                               complex tax issues. Besides raising questions about the
                               adequacy of the feedback to examiners in workload reviews,
                               our evaluation raises questions about whether the cases
                               would have resulted in a no-change had the specialists been
                               involved. In prior TIGTA reports, we determined that



                               13
                                 A case is a taxpayer or group of taxpayers.
                               14
                                 LMSB Division specialists include computer audit specialists,
                               economists, engineers, international examiners, and financial products
                               specialists. Collectively, their primary responsibility is to assist in the
                               examination effort by proving expertise in their respective specialty
                               areas.
                                                                                                  Page 16
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               significant potential tax adjustments were not considered
                               because specialists had not been involved in examinations.15
                               We identified two factors that affected the amount and
                               quality of the feedback examiners received on their
                               performance. First, although the LMSB Division
                               encourages team managers to conduct workload reviews, it
                               does not specifically require that such reviews be conducted.
                               Instead, the Division allows a great deal of flexibility in how
                               and when the reviews are conducted. Moreover, guidelines
                               do not specifically require that managers discuss either
                               LQMS standards or examiner critical job responsibilities
                               during their reviews.
                               Second, the LMSB Division has not established a process to
                               monitor and assess whether team managers are conducting
                               required workload reviews and providing meaningful
                               performance feedback to examiners. Although territory
                               managers had conducted operational reviews16 over the
                               examination teams, their reviews did not include evaluating
                               team managers’ workload reviews.

                               Recommendations

                               To better hold IC examiners accountable for the quality and
                               timeliness of their examinations, the Commissioner, LMSB
                               Division, should develop and implement plans requiring
                               that:
                               1. Team managers provide more specific written feedback
                                  to examiners on the quality and timeliness of
                                  examinations that relates to their critical job elements
                                  and can be used as support for midyear progress reports
                                  and annual appraisals.

                               15
                                  See TIGTA reports entitled, Controls Over the Identification and
                               Selection of Foreign Controlled Corporations for Examination Need
                               Improvement (Reference Number 2001-30-119, dated July 2001), The
                               Engineer Specialist Program Controls Could Be Improved to Ensure
                               More Timely and Accurate Examinations of Large Corporations
                               (Reference Number 2002-30-149, dated September 2002), and The
                               Financial Products Specialist Program Controls Could Be Improved to
                               Ensure More Timely and Accurate Examinations of Large Corporations
                               (Reference Number 2002-30-147, dated September 2002).
                               16
                                  Operational reviews are reviews of team managers and their
                               respective examination teams.
                                                                                         Page 17
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               Management’s Response: The Commissioner, LMSB
                               Division, will issue a performance management reminder to
                               the field. The memorandum will highlight the responsibility
                               to conduct ongoing performance assessments, stress the
                               importance of documentation for progress reviews and
                               annual appraisals, and remind territory managers to include
                               individual agent performance in the topics discussed as part
                               of the operational review process.
                               2. Territory managers monitor and assess the appraisal
                                  process of IC examiners during operational reviews and
                                  take steps to address any problems identified.
                               Management’s Response: The Commissioner, LMSB
                               Division, responded that the LMSB Case Quality
                               Improvement Council has developed and issued a Team
                               Manager Checksheet to assist managers in conducting
                               reviews and assessments. Also, the LMSB Division’s
                               Performance, Quality, and Audit Assistance Office
                               developed and issued the LMSB Guide of Field Balanced
                               Measures Priorities and Recommended Performance
                               Commitments for FY 2005, which encourages team
                               managers to follow a seven-step process for performance
                               reviews and use performance data in developing
                               commitments. The Commissioner, LMSB Division, also
                               stated that LMSB territory managers already include
                               discussions of individual agent performance in their
                               operational reviews.
                               Office of Audit Comment: While we agree that the LMSB
                               Guide of Field Balanced Measures Priorities and
                               Recommended Performance Commitments for FY 2005
                               provides valuable guidance for developing team manager
                               commitments, it does not specifically address the examiner
                               appraisal process. Because the LMSB Division has not
                               established a formal process to monitor and assess whether
                               team managers are providing meaningful performance
                               feedback to examiners, we continue to recommend territory
                               managers be required to monitor and assess the appraisal
                               process of IC examiners during operational reviews and
                               take steps to address any problems identified. As we
                               noted in the report, we reviewed a number of operational
                               reviews of territory managers over team managers. Of the
                               45 operational reviews evaluated, we found no documented

                                                                                   Page 18
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                               evidence that territory managers assessed whether team
                               managers were conducting workload reviews for IC
                               examiners.




                                                                                  Page 19
    Performance Management in the Large and Mid-Size Business Division’s Industry Case
                             Program Needs Strengthening

                                                                                                Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Large and Mid-Size Business
(LMSB) Division’s performance management system is effective in linking the Internal Revenue
Service (IRS) mission, strategic goals, and balanced measures to team manager and examiner
performance in the LMSB Division Industry Case (IC) Program. Work on this review was
performed at the LMSB Division Headquarters in Washington, D.C., and IRS offices in the
Los Angeles, California; Houston, Texas; and New York, New York, metropolitan areas. We
chose these three metropolitan areas primarily to achieve coverage in geographically dispersed
offices.
To meet our objective, we relied on the IRS’ internal management reports and databases. We did
not establish the reliability of these data because extensive data validation tests were outside the
scope of this audit and would have required a significant amount of time. Additionally, we used
judgmental sampling techniques unless otherwise noted, to minimize time and travel costs. To
accomplish the objective, we:
      I. Developed criteria for the review by studying best practices and standards on
         performance management contained in various publications issued by the United States
         (U.S.) Merit Systems Protection Board, Government Accountability Office, IRS, and
         U.S. Office of Personnel Management.
     II. Analyzed the Treasury Integrated Management Information System1 to assess
         the performance ratings and awards received by IC examiners in Fiscal Years
         (FY) 2001-2004.
    III. Evaluated the LMSB Division Quality Management System (LQMS) to identify trends in
         the quality of IC examinations and to determine whether problems areas were
         incorporated into IC examiner workload reviews, midyear progress reports, and annual
         appraisals.
    IV. Analyzed FYs 2002 and 2003 workload reviews, midyear progress reports, and annual
        appraisals for a sample of 30 out of approximately 3,102 IC examiners to assess the
        types, quality, and amount of feedback examiners received on their performance.




1
  The Treasury Integrated Management Information System is an automated personnel and payroll system for
storing and tracking employee personnel and payroll data.



                                                                                                      Page 20
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

 V. Reviewed a sample of 62 returns (47 cases) out of 143 returns that were examined and
    closed with no adjustments during FYs 1999-2002 by the 30 examiners included in the
    review to evaluate selected LQMS elements.
VI. Analyzed FYs 2002 and 2003 performance agreements and related commitments for a
    sample of 20 out of approximately 1,390 IC team managers to assess the types, quality,
    and amount of feedback team managers received on their performance.




                                                                                     Page 21
 Performance Management in the Large and Mid-Size Business Division’s Industry Case
                          Program Needs Strengthening

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Audit Manager
Robert Jenness, Lead Auditor
Douglas Barneck, Senior Auditor
Stanley Pinkston, Senior Auditor
Lisa Stoy, Senior Auditor
William Tran, Senior Auditor
Debra Mason, Auditor




                                                                                       Page 22
 Performance Management in the Large and Mid-Size Business Division’s Industry Case
                          Program Needs Strengthening

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Performance, Quality, and Audit Assistance SE:LM:Q
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                               Page 23
 Performance Management in the Large and Mid-Size Business Division’s Industry Case
                          Program Needs Strengthening

                                                                                Appendix IV


                    Examiner Annual Performance Appraisal Form

The following form is used to evaluate examiners in the Large and Mid-Size Business Division.




                                                                                       Page 24
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 25
 Performance Management in the Large and Mid-Size Business Division’s Industry Case
                          Program Needs Strengthening

                                                                                Appendix V


                    Team Manager Performance Agreement Form

The following form is used to evaluate managers in the Large and Mid-Size Business Division.




                                                                                      Page 26
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 27
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 28
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 29
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 30
    Performance Management in the Large and Mid-Size Business Division’s Industry Case
                             Program Needs Strengthening

                                                                                                         Appendix VI


        The Large and Mid-Size Business Division’s Quality Measurement System

The Office of Performance, Quality, and Audit Assistance, within the Large and Mid-Size
Business (LMSB) Division, has responsibility for the LMSB Division Quality Measurement
System. Among other uses, the LMSB Division uses the system to measure quality of Industry
Case examinations against four standards: (1) Planning the Examination; (2) Inspection/Fact
Finding; (3) Development, Proposal, and Resolution of Issues; and (4) Workpapers and Reports.
Each standard also has several key elements that elaborate on the overall standard. Table 1
summarizes the standards and associated key elements.

                                Table 1: Summary of the LMSB Division’s Quality
                                  Measurement System (as of September 2003)
No.          Standard                                Key Elements                                       Overview
    1       Planning the    • Was appropriate information    • Did the audit plan              The standard evaluates
            Examination       considered in the                adequately set forth the        whether the audit plan
                              preplanning process?             scope and depth of the          identifies material issues;
                            • Were material items              examination?                    whether initial requests for
                              identified?                    • Did the audit plan include a    information are clear,
                            • Was an appropriate initial       realistic estimated             concise, and appropriate and
                              risk analysis performed?         completion date and realistic   address the potential issues
                            • Were timely referrals to         time periods for                selected; and whether all
                              specialists and requests for     development of issues/areas?    necessary steps are taken to
                              support made?                  • Were audit procedures           set the groundwork for a
                            • Were all required procedures     documented during the           complete examination.
                              followed for Form 10651 and      planning process?
                              1120-S2 returns?               • Did the planning process
                                                               have adequate taxpayer
                                                               involvement?
    2     Inspection/Fact   • Were appropriate audit         • Was there communication         Appropriate audit procedures
              Finding         procedures and examination       with the taxpayer to reach an   and examination techniques,
                              techniques used?                 understanding of the facts      including interviews, written
                            • Were requests for                regarding material issues?      requests, inspection,
                              information clear and          • Were mandatory                  observation, and other fact
                              concise?                         Information Document            finding techniques, should be
                            • Were Computer Audit              Requests issued as              used to gather sufficient,
                              Specialist applications used     appropriate?                    competent information to
                              in obtaining necessary                                           determine the correct tax
                              information?                                                     liability.




1
    U.S. Return of Partnership Income (Form 1065).
2
    U.S. Income Tax Return for an S Corporation (Form 1120-S).
                                                                                                                  Page 31
    Performance Management in the Large and Mid-Size Business Division’s Industry Case
                             Program Needs Strengthening


No.          Standard                              Key Elements                                         Overview
    3      Development,    • Were the issues                • Was an appropriate midcycle      Due professional care should
           Proposal, and     appropriately developed          risk analysis performed?         be exercised in the
           Resolution of     based upon the facts           • Were the Forms 57013 clear       application of the tax law.
              Issues         obtained?                        and concise?                     The taxpayer should be given
                           • Was the time commensurate      • Were proposed adjustments        an opportunity to participate
                             with the complexity of the       discussed with the taxpayer      in issue development.
                             issues?                          prior to issuance of
                           • Was appropriate advice and       Form 5701?                       Notices of proposed
                             assistance obtained from       • Did the team adequately          adjustment and attachments
                             resources outside the team?      consider responses to            should be stated in terms
                           • Was there timely and             Forms 5701 provided by the       understandable to the
                             effective communication          taxpayer?                        taxpayer; they should clearly
                             among all team members?        • Were appropriate actions         state the issue, facts, law,
                           • Did the case file reflect a      taken to resolve issues at the   Federal Government’s
                             reasonable interpretation,       lowest level?                    position, taxpayer’s position,
                             application, and explanation   • Was there meaningful             and conclusions.
                             of the law based upon the        managerial involvement to
                             facts and circumstances of       resolve issues at the lowest
                             the examination?                 level?
                           • Were penalties considered
                             and applied as warranted?
    4     Workpapers and   • Were workpapers                • Were applicable                  Workpapers are the link
             Reports         legible/organized?               report-writing procedures        between the examination
                           • Were examination activities      followed?                        work and the report. They
                             properly documented by         • Did the team manager             should contain the evidence
                             using agent activity records     review the audit report prior    to support the facts and
                             or quarterly narratives?         to issuance?                     conclusions contained in the
                           • Did the workpapers             • Were factual and legal           report. Written reports
                             adequately document the          differences in the taxpayer’s    should communicate the
                             audit trail, techniques, and     protest addressed?               findings and examination in a
                             conclusions?                                                      professional manner.
Source: Large and Mid-Size Business Division Focus on Quality Examinations (LQMS) (Document 12076).




3
    Notice of Proposed Adjustment (Form 5701).
                                                                                                                   Page 32
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening

                                                                     Appendix VII


                 Management’s Response to the Draft Report




                                                                            Page 33
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 34
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 35
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 36
Performance Management in the Large and Mid-Size Business Division’s Industry Case
                         Program Needs Strengthening




                                                                            Page 37
